                           SOCIAL SECURITY
                                     June 29, 2009

The Honorable Charles E. Grassley
Ranking Member
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Mr. Grassley:

In a March 6, 2009 letter, you requested that we provide assistance in determining
whether the Social Security Administration (SSA) performs adequate oversight of its
representative payees. Specifically, we were requested to provide information related
to the following issues.
 • Unimplemented recommendations from prior Office of the Inspector General
   representative payee audits and evaluations.
 • Unimplemented recommendations made by the National Academies in its 2007
   report on representative payees.
 • Representative payees serving as a job placement or job referral service.
 • Representative payees serving as employers to the beneficiaries they represent.

To obtain the information requested, we collected data for various representative payee
recommendations from the Agency and analyzed SSA’s records to identify payees who
are placing their beneficiaries with common employers.

My office is committed to combating fraud, waste, and abuse in SSA’s operations and
programs. Thank you for bringing your concerns to my attention. The report highlights
various facts pertaining to the issues raised in your letter. To ensure SSA is aware of
the information provided to your office, we are forwarding a copy of this report to the
Agency.




           SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
Page 2 - The Honorable Charles E. Grassley


If you have any questions concerning this matter, please call me or have your staff
contact Wade Walters, Assistant Inspector General for External Relations,
at (202) 358-6319.

                                               Sincerely,




                                               Patrick P. O’Carroll, Jr.
                                               Inspector General

Enclosure

cc:
Michael J. Astrue
CONGRESSIONAL RESPONSE
       REPORT

The Social Security Administration’s
 Oversight of Representative Payees

            A-13-09-29141




              June 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                             Background
OBJECTIVE
Our objective was to provide information related to the Social Security Administration’s
(SSA) oversight of its representative payees. Specifically, our objective was to provide
the information requested in the following areas.

•     Unimplemented recommendations from prior Office of the Inspector General (OIG)
      representative payee audits and evaluations.

•     Unimplemented recommendations made by the National Academies in its 2007
      report on representative payees.

•     Representative payees serving as a job placement or job referral service.

•     Representative payees serving as employers to the beneficiaries they represent.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth and/or mental or physical impairments. Congress granted SSA the authority
to appoint representative payees to receive and manage these beneficiaries’ benefit
payments. 1 A representative payee may be an individual or an organization. SSA
selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
program 2 and/or Supplemental Security Income (SSI) program 3 beneficiaries when
representative payments would serve the individual’s interests.4

In a March 2009 letter, Senator Grassley wrote, “As evidenced by recent media reports
on SSA beneficiaries with representative payees, individuals with mental impairments
can fall prey to mistreatment from others.” The Senator cited an article highlighting a
situation where a Texas-based business “…paid mentally disabled men a pittance to
work for an Iowa meat processing plant.” After learning of this situation, Senator
Grassley indicated the need to ensure SSA exerts adequate oversight of and has the
commitment to continuously improve its management of representative payees.

1
    Social Security Act §§ 205(j)(1) and 1631(a)(2); 42 U.S.C. §§ 405(j)(1) and 1383(a)(2).
2
 The OASDI program provides benefits to qualified retired and disabled workers and their dependents as
well as to survivors of insured workers (Social Security Act § 202 et seq., 42 U.S.C. § 402 et seq.).
3
 The SSI program provides payments to individuals who have limited income and resources and who are
age 65 or older, blind or disabled. 20 Code of Federal Regulations (C.F.R.) § 416.110.
4
  The term “beneficiary” is used generically in this report to refer to both OASDI beneficiaries and SSI
recipients.


The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                    1
On February 7, 2009, Iowa State officials removed 21 mentally disabled adult males
from an Iowa turkey processing plant where they worked in what was described as an
undesirable environment. Most of these individuals, who ranged from 39- to 70-years
old, were receiving Social Security benefits. Hill Country Farms, Inc., in Goldthwaite,
Texas, served as the representative payee for 20 of these individuals. SSA reported
Henry’s Turkey Service, a subsidiary of Hill Country Farms, Inc., was an employment
service that contracted with the Iowa turkey processing plant. More than 20 years ago,
Hill Country Farms sent many of these men to Iowa from Texas to work at the plant.
SSA also indicated the individuals receiving Social Security benefits were appointed
new payees.

To assist in determining whether the Agency performs adequate oversight of its
representative payees, Senator Grassley requested our office provide information about
SSA’s Representative Payment Program. See Appendix B for the scope and
methodology of our review.




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)   2
                                                         Results of Review
Responses to Requests in March 2009 Letter
Issue 1: Unimplemented Recommendations from Prior OIG Representative Payee
Audits and Evaluations

Given the risk of representative payee misuse and the vulnerability of beneficiaries, we
believe it is imperative that SSA have appropriate safeguards to ensure representative
payees perform their responsibilities. As we reported in our November 2008 statement
on SSA’s major management and performance challenges, 5 representative payees
continue to be a significant challenge for the Agency. Our prior audits and evaluations
of representative payees and representative payee issues have found significant
problems with payee performance and SSA oversight. In prior reports, we made
numerous recommendations to improve SSA’s Representative Payment Program. SSA
has implemented most of our recommendations. However, some recommendations
remain unimplemented. We track all recommendations made to SSA until they are
implemented or closed. SSA provides periodic updates on the status of unimplemented
recommendations until they are resolved.

As of May 18, 2009, we continued to track 15 unimplemented representative payee
recommendations made to SSA before March 31, 2009. 6 SSA reported it continued to
take action on these recommendations. For example, we recommended that SSA
continue to pursue recovery of any outstanding overpayments to organizational
representative payees that resulted from benefits issued to the organizations after
beneficiaries’ deaths.7 SSA reports it completed the review and overpayment
assessment for 48 of the 52 beneficiaries we identified where payments were issued
after death. The Agency indicated the overpayments for these 48 beneficiaries were
either recovered or controlled for refund. SSA also reported it expects to complete the
remaining four cases by the end of June 2009. See Appendix C for a detailed listing of
the 15 unimplemented OIG recommendations.




5
 Fiscal Year 2008 Inspector General Statement on the Social Security Administration's Major
Management and Performance Challenges (A-02-09-19074), issued November 2008.
6
 To provide SSA an opportunity to implement our recommendations, audit and evaluation reports issued
on or after March 31, 2009, were not included.
7
 Organizational Representative Payees Reporting Beneficiaries’ Deaths (A-01-06-15068), issued
April 2008.


The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)            3
Issue 2: Unimplemented Recommendations Made by the National Research
Council of the National Academies in Its 2007 Report on Representative Payees

In July 2007, the National Research Council of the National Academies issued its
report, Improving the Social Security Representative Payee Program: Serving
Beneficiaries and Minimizing Misuse. In addition to summarizing its survey results, the
report contained conclusions and recommendations to improve SSA’s Representative
Payment Program. On April 15, 2008, SSA issued its response to the National
Academies report. The response addressed the 28 recommendations identified in the
report to improve its Representative Payment Program.

In responding to this question, we did not independently verify that any of the
28 recommendations had been implemented. Rather, we requested the Agency
provide status information for all the recommendations in the National Academies
report. SSA reported the status for 19 of the 28 recommendations. See Appendix D for
the status of these recommendations as of May 2009.

Issue 3: Representative Payees Serving as a Job Placement or Job Referral
Service

SSA does not maintain information on whether specific representative payees are
serving as job placement, job referral or employers for the beneficiaries in their care. To
obtain information to respond to this request, we analyzed SSA’s automated records to
identify representative payees that appeared to be placing their beneficiaries with
common employers. To conduct our analysis, we established criteria that we believed
would indicate payees who were acting as a job placement or job referral service for
their beneficiaries. Specifically, we used information recorded in the Agency’s
information systems to identify organizational representative payees that had the
following characteristics. 8

• Payees served between 5 and 49 beneficiaries. 9

• Beneficiaries had wages reported anytime during Calendar Years 2003 to 2007.

• Two or more beneficiaries had wages reported for the same employer.

• Payees had employer identification numbers (EIN) 10 that were different from the
  employers associated with wages reported for the beneficiaries.
8
    See Appendix B for more information.
9
 We selected organizational payees that served a minimum of five beneficiaries. In addition, we selected
payees for whom SSA policy does not require site reviews. SSA conducts site reviews of organizations
serving 50 or more beneficiaries.
10
  The EIN is a nine-digit number assigned by the Internal Revenue Service to sole proprietors,
corporations, partnerships, estates, trusts and other entities for tax filing and reporting purposes. SSA
records EINs with the associated wage postings.


The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                     4
Based on these factors, we identified 2,602 organizational representative payees that
may also serve as job placement or referral services for their beneficiaries. Using a
similar methodology, we also identified 113 individual representative payees who could
be serving as job placement or referral services or employers to the beneficiaries they
represent.

To provide additional information regarding representative payees serving as job
placement or job referral services to the beneficiaries they serve, we requested the
Agency provide responses to the following questions.

OIG Question 1:   What is the specific policy or memorandum that allows or disallows
     payees to serve as job placement/referral services?

SSA Response:      SSA follows existing representative payee policy for applicants who
     are also job placement/referral services. The core principle in payee
     appointment policy is to select the applicant who is best suited to serve as a
     payee. While application of that principle will generally result in a family member
     serving as payee, sometimes an organization which provides other services to
     the beneficiary is in the best position to serve. (The basis for the policy is
     contained in the Social Security Act §§ 205(j) and 1631(a)(2), 20 C.F.R.
     404.2020 through 404.2024, 20 C.F.R. 416.620 through 416.624 and in POMS
     [Program Operations Manual System] GN [General] 00502.100 through
     00502.185.)

OIG Question 2:   How many representative payees are serving as job
     placement/referral services? How many beneficiaries are served by these
     representative payees?

SSA Response:     SSA does not have management information that provides this
     information.

Issue 4: Representative Payees Serving as Employers to the Beneficiaries They
Represent

In addition, our analysis of information recorded in the Agency’s information systems
allowed us to identify organizational representative payees that appear to be serving as
employers to the beneficiaries they represent. To identify these payees, we used
characteristics similar to those used to identify payees that could be serving as job
placement/referral services. However, we identified payees whose EINs matched the
employers who reported wages for the beneficiaries. As a result, we identified
963 organizational representative payees who could be serving as employers to the
beneficiaries they served. 11




11
     Id.


The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)   5
The following responses were provided by the Agency during our review.

OIG Question 1:   What is the specific policy or memorandum that allows or disallows
     payees to serve as employers to the beneficiaries they serve?

SSA Response:      SSA follows existing representative payee policy for applicants who
     are also employers to the beneficiaries they represent. The core principle in
     payee appointment policy is to select the applicant who is best suited to serve as
     a payee. While application of that principle will generally result in a family
     member serving as payee, sometimes an organization which provides other
     services to the beneficiary is in the best position to serve.

OIG Question 2:    How many representative payees are serving as employers to the
     beneficiaries they serve? How many beneficiaries are served by these
     representative payees?

SSA Response:     SSA reported 2,500 representative payees serving as employers to
     the 30,000 beneficiaries they serve.

Information Applicable to Representative Payees Serving as a Job Placement
Service, Job Referral Service, or Employer to the Beneficiaries They Represent

In addition to the previous information, we requested SSA to respond to these
questions.

OIG Question 1:    If representative payees are allowed to serve in these capacities,
     what are the requirements for payees who serve as job placement/referral
     services or employers to the beneficiaries they serve?

SSA Response:        SSA follows existing representative payee policy to address this
     kind of payee. The core principle in the payee appointment policy is to select the
     applicant who is best suited to serve as a payee. While application of that
     principle will generally result in a family member serving as payee, sometimes an
     organization which provides other services to the beneficiary is in the best
     position to serve.

       OIG Question 1a: What procedures or mechanisms are in place to ensure
            these representative payees follow Agency policy?

       SSA Response:      Like all other payees they must complete annual
            representative payee report (accounting) forms. In addition, payee
            organizations who serve 50 or more beneficiaries are subject to site
            reviews. If SSA receives a report from a third party that raises questions
            about the suitability of the representative payee, the Agency opens an
            investigation and can refer the case to the Inspector General.




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)   6
           OIG Comment:      SSA subsequently provided additional information about its
                representative payee reports and site reviews. See Appendix E for the
                type of payee reports mailed and reviewed by the Agency for Fiscal Years
                (FY) 2006 to 2008. Appendix F contains information about the type of
                representative payee reviews performed by the Agency and the number of
                reviews conducted during FYs 2006 to 2008.

           OIG Question 1b: What are the Agency’s monitoring/oversight activities for
                these payees to ensure compliance with policy?

           SSA Response:      Like all other payees they must complete annual
                representative payee report (accounting) forms. In addition, payee
                organizations who serve 50 or more beneficiaries are subject to site
                reviews. If SSA receives a report from a third party that raises questions
                about the suitability of the representative payee, the Agency opens an
                investigation and can refer the case to the Inspector General.

           OIG Question 1c: What are the results from the Agency’s FY 2008
                monitoring/oversight activities of these representative payees?

           SSA Response:       In FY 2008, SSA did not conduct any special reviews of
                payees who employ beneficiaries. However, like all other payees, they
                must complete annual representative payee report (accounting) forms. In
                addition, payee organizations who serve 50 or more beneficiaries are
                subject to site reviews. 12

           OIG Question 1d: If policy does not exist regarding these types of
                payee/beneficiary relationships, does the Agency plan to address these
                types of relationships?

           SSA Response:        SSA will update its policies to address these situations. As a
                result of the Hill Country Farms situation, SSA is taking a closer look at
                payees who employ beneficiaries. Initially, the Agency reported its staff
                will be visiting some of the payees, interviewing beneficiaries, and looking
                at the work site. SSA will report any health or safety problems to the
                proper authorities. In addition, if Agency staff sees any indication of
                misuse, they will conduct a more in-depth financial review of the
                organization. SSA will be in a better position to know the extent of the
                problem once reviews of these payees are complete and at that time the
                Agency will decide what additional policies, if any, are needed. 13


12
  Although the question pertained to payees serving as job placement services, job referral services, or
payees that serve as employers to the beneficiaries they represent, SSA‘s response was limited to
payees that serve as employers.
13
     Id.


The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                    7
       OIG Comment:       SSA subsequently reported it has “…taken a closer look at
            payees who employ beneficiaries and we have 1) identified payees who
            also employ their beneficiaries; 2) made a sample selection of that
            population; 3) published new monitoring instructions that include a review
            of the work site; and 4) started the review of these payees.”




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)   8
                                                                  Conclusions
We believe representative payees that also serve as job placement services, job referral
services, or employers to the beneficiaries they represent should be adequately
monitored. Based on our analysis of information recorded in SSA’s information
systems, we believe there may be a significant number of payees providing job
placement or job referral services to the beneficiaries they represent. In addition, the
Agency reported it has 2,500 payees serving as employers to 30,000 beneficiaries.

To date, representative payees who also serve as job placement/referral services or
employers to the beneficiaries they serve have not received more monitoring or
oversight by SSA than any other type of payee. Given the risk of representative payee
misuse and the vulnerability of these beneficiaries, it is imperative that appropriate
safeguards exist to ensure representative payees perform their duties and such
relationships do not disadvantage beneficiaries. SSA reported it has “…taken a closer
look at payees who employ beneficiaries and we have 1) identified payees who also
employ their beneficiaries; 2) made a sample selection of that population; 3) published
new monitoring instructions that include a review of the work site; and 4) started the
review of these payees.”

Our analysis of SSA’s electronic data identified 3,565 organizations and 113 individual
payees who may serve as job placement/referral services or employers for the
beneficiaries in their care. To determine whether these payee-beneficiary relationships
place beneficiaries at added risk, we plan to randomly select 50 of these payees for site
visits to the beneficiaries’ homes and places of work. We will disclose the results of our
review in a separate report when our site visits are completed.




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)   9
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Unimplemented Office of the Inspector General Recommendations
             Related to Representative Payees
APPENDIX D – Status of the National Academies’ Recommendations
APPENDIX E – Representative Payee Reports
APPENDIX F – Representative Payee Reviews




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)
                                                                           Appendix A

Acronyms

 AARP                            American Association of Retired Persons
 C.F.R.                          Code of Federal Regulations
 CWS                             Child Welfare Services
 DOC                             Difficulty of Care
 EIN                             Employer Identification Number
 FMO                             Fiscal Management Office
 FY                              Fiscal Year
 HDHS                            Hawaii Department of Human Services
 Ittleson Center                 Henry Ittleson Center
 NAS/National Academies          National Research Council of the National Academies
 OASDI                           Old-Age, Survivors and Disability Insurance
 OIG                             Office of the Inspector General
 OSCAR                           Onsite Security Control and Audit Review
 Partnership                     Partnership for Strong Families
 POMS                            Program Operations Manual System
 RPS                             Representative Payee System
 SSA                             Social Security Administration
 SSI                             Supplemental Security Income
 Treasury                        Department of the Treasury
 U.S.C.                          United States Code




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)
                                                                           Appendix B

Scope and Methodology
We collected and reviewed information specific to the issues identified in the
March 6, 2009 letter from Senator Charles E. Grassley, Ranking Member, Senate
Committee on Finance. In the letter, Senator Grassley requested our assistance in
determining whether the Social Security Administration (SSA) was performing adequate
oversight of its representative payees. Specifically, we were asked to provide
information related to (a) unimplemented representative payee recommendations;
(b) payees that provide job placement services or job referral services to beneficiaries
they represent; and (c) payees serving as employers to beneficiaries.

To achieve our objective, we:

•   Reviewed applicable Federal laws and regulations and SSA’s policies and
    procedures.

•   Coordinated with SSA’s Audit Management and Liaison Staff within the Office of the
    Deputy Commissioner for Budget, Finance and Management to obtain the status of
    SSA actions for unimplemented recommendations from prior representative payee
    audits and evaluations performed by the Office of the Inspector General.

•   Coordinated with the Office of Supplemental Security Income and Representative
    Payee Policy within the Office of the Deputy Commissioner for Retirement and
    Disability Policy for the status of recommendations made by the National Research
    Council of the National Academies.

•   Obtained an electronic data extract of representative payees who could be
    (1) placing their beneficiaries with common employers (job placement services),
    (2) serving as job referral services, or (3) acting as employers to the beneficiaries
    they represent. To identify these payees, we:

    o Used information recorded for representative payees and the beneficiaries they
      serve in SSA’s (a) Representative Payee System, (b) Master Beneficiary Record,
      (c) Supplemental Security Record, (d) Master Earnings File, (e) Suspense File,
      and (f) Prisoner Update Processing System.

          We identified organizational representative payees that served between 5 and
           49 beneficiaries; had beneficiaries with wages reported anytime during
           Calendar Years 2003 to 2007; had 2 or more beneficiaries with wages
           reported for the same employer; and had employer identification numbers
           (EIN) for beneficiaries’ reported wages that were different from the payees’
           EINs. Organizational payees that met these criteria could be serving as job
           placement or job referral services to the beneficiaries they represent. In total,


The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)     B-1
            we identified 2,602 organizational representative payees who could be
            serving as job placement or referral services.

           We identified organizational representative payees that served between 5 and
            49 beneficiaries; had beneficiaries with wages reported anytime during
            Calendar Years 2003 to 2007; had two or more beneficiaries with wages
            reported for the same employer; and had EINs for beneficiaries’ reported
            wages that were the same as the payees’ EINs. Organizational payees that
            met these criteria could be serving as employers of the beneficiaries they
            represent. In total, we identified 963 organizational representative payees
            who could be serving as employers to the beneficiaries they represent.

           We identified individual representative payees who served between 5 and
            14 beneficiaries; 1 had beneficiaries with wages reported anytime during
            Calendar Years 2004 to 2008; and had 2 or more beneficiaries with wages
            reported for the same employer. Individual representative payees do not
            have EINs. Therefore, we could not determine whether individual
            representative payees’ EINs were the same as the employers associated with
            reported wages. Individual payees who met these criteria could be serving as
            job placement or job referral services or as employers for the beneficiaries
            they represent. In total, we identified 113 individual representative payees
            who could be serving as job placement, job referral services or employers to
            the beneficiaries they represent.

The SSA operating components reviewed were the Offices of the Deputy
Commissioners for Operations, and Retirement and Disability Policy. We performed our
review in Baltimore, Maryland, from April through May 2009. We conducted our review
in accordance with the Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency. 2




1
 We selected individual payees who served a minimum of five beneficiaries. In addition, we selected
payees for whom SSA policy does not require site reviews. SSA conducts site reviews of individual
payees serving 15 or more beneficiaries.
2
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.


The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)               B-2
                                                                                      Appendix C

Unimplemented Office of the Inspector General
Recommendations Related to Representative
Payees
       Report           OIG Recommendation                  Agency Response                    Status of Action
Financial-Related      Review the                SSA decided to leave this issue to the       No additional
Audit of the Harris    appropriateness of all    payee to dispute. However, SSA               information
County                 guardianship fees paid    planned to make case by case                 provided.
Guardianship           from the Social Security  determinations of excess fees
Program – An           Administration (SSA)      depending on how the legal issue of
Organizational         beneficiaries’ funds sincewhether fees were charged in violation
Representative         the payee began serving   of the Texas Probate Code was
Payee for the Social   as a representative       resolved. If no fees should have been
Security               payee and instruct the    charged, all fees charged will have to
Administration         payee to return           be remitted. If fees are allowed under
(A-04-02-12020)        unapproved and/or         the Code, SSA would make a
issued December        excessive fees to         determination as to whether the fees
2002                   affected beneficiaries.   were excessive. Some cases may
                                                 require referral to the Regional Office of
                                                 General Counsel.
Cabinet for Families Direct the payee to         Kentucky's fiscal policy is established      No additional
and Children,         remove its general         as a master account with sub-accounts        information
Department for        beneficiary funds from     for each agency. They maintain details       provided.
Community Based Kentucky’s General               for each beneficiary, including the exact
Services, Division of Depository account and amount used and held for each
Protection and        establish a specific title individual. In the past, the State has
Permanency - An       that expressly shows a     been adamant that this policy cannot be
Organizational        custodian-ward             changed. However, SSA is exploring
Representative        relationship to guarantee whether this arrangement is in
Payee for the Social its payees’ deposits will compliance with its policy. Once a final
Security              be maximally insured by determination is made, the payee will
Administration        deposit insurance.         be notified. In addition, SSA was
(A-08-03-13084)                                  consulting with its Office of General
issued March 2004                                Counsel to determine whether the
                                                 Kentucky accounting system is
                                                 considered a "public unit account," and
                                                 whether each beneficiary is insured up
                                                 to the standard $100,000.




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                       C-1
      Report          OIG Recommendation                  Agency Response                 Status of Action
Conserved Funds      Develop specific policy to
                                              SSA disagreed with the                     No additional
for Deceased         define the oversight     recommendation, stating that under the     information
Beneficiaries with   responsibilities of non- Social Security Act, SSA does not have     provided.
Non-Related          related representative   an oversight responsibility after the
Representative       payees’ disposition of   death of a beneficiary and therefore its
Payees               conserved funds after theauthority is limited. When SSA receives
(A-13-03-23085)      death of a beneficiary.  a report of death, policy requires
issued March 2004                             notification to the representative payee
                                              that any conserved funds belong to the
                                              beneficiary’s estate and should be
                                              forwarded to the estate for proper
                                              disposition. Conserved funds are the
                                              property of the beneficiary, and upon
                                              the death of a beneficiary, State law
                                              governs the disposition of the
                                              beneficiary’s property. The death of the
                                              beneficiary ends SSA’s oversight
                                              responsibilities However, SSA agreed
                                              to modify its instructions to require
                                              reviewers conducting on-site reviews to
                                              remind payees of the requirement to
                                              turn over conserved funds, and to ask
                                              payees if they have turned over
                                              conserved funds, to a deceased
                                              beneficiary’s estate.
Restitution of      Revise its representative SSA disagreed with this                    No additional
Misused Funds to    payee policies for        recommendation, stating the Agency's       information
Beneficiaries Under reissuing misused funds instructions regarding restitution of        provided.
Public Law 108-203 for deceased               misused benefits for deceased
(A-09-05-15139)     beneficiaries to ensure   beneficiaries require revision.
issued August 2006 consistency with SSA’s
                    policies for repaying
                    misused and conserved
                    funds to the survivors
                    and estates of these
                    individuals.




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)              C-2
      Report            OIG Recommendation                      Agency Response                     Status of Action
Partnership for        Reimburse the eight Title    Although SSA originally agreed with this       SSA revised its
Strong Families, An    XVI recipients $11,307 in    recommendation, it later revised its           response to this
Organizational         monthly benefits that the    position stating there is no legal basis       recommendation
Representative         payee incorrectly            for this recommendation. Although the          by disagreeing
Payee for the Social   returned to SSA. This        payee owed foster care payments to             with the
Security               amount includes the          the State, there were no outstanding           recommendation
Administration         benefits the payee           checks written to the State. If checks         and issuing an
(A-04-07-17084)        returned because it          had been written to the State, the value       internal
issued March 2008      mistakenly concluded the     of the uncashed checks could have              addendum to the
                       recipients’ resources        been deducted from the first-of-the-           final report. The
                       exceeded Title XVI limits.   month balances. The Office of the              internal
                                                    Inspector General maintained that the          addendum was
                                                    payee used improper accounting                 issued October
                                                    practices. The Agency was unable to            2008.
                                                    substantiate this position. The account
                                                    balances correctly reflected the
                                                    availability of funds as of the first of the
                                                    month. These funds exceeded the
                                                    resource limit of $2,000.

                                               As a result, the eight Title XVI recipients
                                               whose monthly benefits were incorrectly
                                               reimbursed will be overpaid. Corrective
                                               action will be taken on each
                                               Supplemental Security Record and the
                                               appropriate overpayment notices will be
                                               issued. Partnership for Strong Families
                                               (Partnership) will have the option of
                                               refunding the overpaid amount or
                                               requesting a waiver. The Agency will
                                               strongly consider waiving these
                                               overpayments due to an administrative
                                               error.
Partnership for      Ensure the payee better SSA concurred with this                       A review was
Strong Families, An manages recipients’        recommendation and provided no              done at the end of
Organizational       conserved fund accounts additional comments.                          March 2009. SSA
Representative       so balances (1) do not                                                was waiting for
Payee for the Social exceed the Title XVI                                                  the final report to
Security             resource limit or (2) are                                             confirm
Administration       not incorrectly reported                                              Partnership’s
(A-04-07-17084)      as exceeding the limit.                                               better
issued March 2008                                                                          management and
                                                                                           monitoring of
                                                                                           conserved funds.




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                        C-3
      Report            OIG Recommendation                Agency Response          Status of Action
Partnership for        Ensure the payee           SSA concurred with this         To ensure internal
Strong Families, An    disburses conserved        recommendation and had no additional
                                                                                  procedures for the
Organizational         funds, as appropriate, to comments.                        disbursement of
Representative         help foster parents meet                                   personal needs
Payee for the Social   their children’s more                                      allowance are
Security               personal needs. At a                                       consistently being
Administration         minimum, the payee                                         followed, a follow-
(A-04-07-17084)        should disburse the                                        up review was
issued March 2008      $30 personal needs                                         conducted in
                       allowance that is withheld                                 March 2009. SSA
                       monthly from SSA                                           was waiting for
                       payments.                                                  the final report to
                                                                                  confirm that
                                                                                  Partnership is
                                                                                  disbursing the
                                                                                  $30 personal
                                                                                  needs allowance
                                                                                  as appropriate.
Partnership for      Instruct the payee to      SSA concurred with this           To ensure
Strong Families, An ensure all documentation recommendation and had no additional bookkeeping and
Organizational       is maintained to           comments.                         accounting
Representative       corroborate expenditures                                     procedures were
Payee for the Social for beneficiary’s personal                                   strengthened
Security             needs that are paid for                                      since the previous
Administration       with conserved benefits.                                     report, a follow-up
(A-04-07-17084)                                                                   review was
issued March 2008                                                                 conducted in
                                                                                  March 2009. SSA
                                                                                  was waiting for
                                                                                  the final report to
                                                                                  confirm that all
                                                                                  documentation is
                                                                                  maintained to
                                                                                  corroborate
                                                                                  expenditures for
                                                                                  beneficiaries’
                                                                                  personal needs.




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)        C-4
      Report          OIG Recommendation                      Agency Response                    Status of Action
The Henry Ittleson   Work with the Jewish          SSA stated it would work with the            SSA is conducting
Center - An          Board of Families and         payee to establish more effective            a full site review
Organizational       Children’s Services, Inc.     controls to ensure they adhere to payee      at the Ittleson
Representative       and the Henry Ittleson        guidelines.                                  Center to ensure
Payee for the Social Center (Ittleson Center),                                                  it has established
Security             for as long as they are                                                    internal
Administration       payee to establish                                                         procedures and
(A-02-07-27077)      effective internal controls                                                guidelines on how
issued March 2008    over the receipt and                                                       to manage the
                     management of                                                              beneficiaries'
                     Supplemental Security                                                      funds and adhere
                     Income (SSI) payments                                                      to representative
                     and to ensure that                                                         payee guidelines.
                     complete financial
                     records supporting the
                     receipt, recording,
                     disbursement and
                     maintenance of
                     payments are
                     maintained.
The Henry Ittleson Determine whether any           SSA’s research found that there were         No additional
Center - An          of the other 185 facilities   19 organizations in the Representative       information
Organizational       are serving as a              Payee System (RPS), and only 15 of           provided.
Representative       representative payee,         the 19 in RPS were active payees, 2 of
Payee for the Social and, if so, ensure the        them being the Ittleson locations. The
Security             facilities are properly       website only contained a list of
Administration       accounting for and            approximately 130 organizations, many
(A-02-07-27077)      managing all SSI              of whom were listed more than once, as
issued March 2008 payments they receive in         they sponsored multiple programs.
                     accordance with               SSA requested a list of the 185 facilities
                     applicable regulations        to ensure it identified all that were
                     and SSA’s policies and        representative payee for any
                     procedures.                   beneficiaries/recipients.
Organizational       Continue to pursue            SSA agreed to follow up with the             SSA completed
Representative       recovery of any               organizational payees to recover debts       the review and
Payees Reporting     outstanding                   owed.                                        overpayment
Beneficiaries’       overpayments to                                                            assessment for
Deaths               organizational                                                             48 of the
(A-01-06-15068)      representative payees                                                      52 beneficiaries
issued April 2008    that resulted from                                                         where payments
                     benefits issued to the                                                     were issued after
                     organizations after                                                        death. The
                     beneficiaries’ deaths.                                                     overpayments for
                                                                                                these
                                                                                                48 beneficiaries
                                                                                                were either
                                                                                                recovered or
                                                                                                controlled for
                                                                                                refund. SSA
                                                                                                expected to
                                                                                                complete the
                                                                                                remaining
                                                                                                four cases by
                                                                                                June 2009.



The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                     C-5
      Report            OIG Recommendation               Agency Response                        Status of Action
Organizational         Conduct reviews for the SSA agreed and sent this workload to            SSA performed
Representative         8 volume payees—and     the respective regions for handling.            on-site reviews on
Payees Reporting       the 22 other                                                            5 of the 8 volume
Beneficiaries’         organizations that                                                      payees and 15 of
Deaths                 represented fewer than                                                  the 22 other
(A-01-06-15068)        50 beneficiaries—to                                                     organizations.
issued April 2008      ensure the payees were                                                  SSA expected to
                       performing their duties                                                 complete the
                       satisfactorily.                                                         remaining on-site
                                                                                               reviews by the
                                                                                               end of May 2009.
Beneficiary and      Remind field offices to            SSA agreed to send a reminder to field No additional
Recipient Use of "In discontinue the practice           office staff not to promote or         information
Care of" Addresses   of promoting/                      recommend the use of one financial     provided.
(A-06-08-18015)      recommending use of                institution over another for direct
issued August 2008   any individual financial           deposit. SSA planned to issue the
                     institution or type of             reminder by December 31, 2008.
                     institution over another.
Beneficiary and      Include steps in the               SSA disagreed, stating that although it       No additional
Recipient Use of "In Onsite Security Control            is important that personnel not               information
Care of" Addresses and Audit Review                     promote/recommend use of any                  provided.
(A-06-08-18015)      (OSCAR) process to                 individual financial institution or type of
issued August 2008 ensure field offices do              institution over another, the OSCAR
                     not promote/recommend              guide is not the appropriate mechanism
                     use of any individual              for disseminating this information. The
                     financial institution or           OSCAR guide is an audit package used
                     type of institution over           to review aspects of SSA operations to
                     another.                           ensure specific actions are processed
                                                        according to established policies and
                                                        procedures (items such as third-party
                                                        drafts, enumeration actions, and time
                                                        and attendance records are reviewed
                                                        for accuracy, completeness, and
                                                        adherence to established guidelines).
                                                        The OSCAR is not a training tool or a
                                                        vehicle to disseminate information to
                                                        employees.
Hawaii Department      Improve its controls over        SSA agreed that Hawaii Department of          No additional
of Human Services      reporting changes in             Human Services (HDHS) needs to                information
- An Organizational    beneficiary                      improve its controls over reporting           provided.
Representative         circumstances that affect        changes in beneficiary circumstances
Payee for the Social   their eligibility for benefits   SSA and Fiscal Management Office
Security               (for example, changes in         (FMO). To this end, Child Welfare
Administration         custody and Title IV E           Services (CWS) will be sending monthly
(A-09-08-28045)        benefits payable to SSI          reports to FMO, the CWS units, and to
issued September       recipients).                     SSA, when changes occur. HDHS
2008                                                    amended the child's data screen on the
                                                        CWS' Child Protective Services System
                                                        data base to include fields for staff to
                                                        complete when a child is receiving SSI
                                                        and Old-Age, Survivors and Disability
                                                        Insurance benefits.




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                           C-6
                                                                                          Appendix D

  Status of the National Academies’
  Recommendations
Number                NAS                          SSA Response                             Status of Action
             Recommendation
   3.1      The Social Security     SSA agreed that conserving funds not used         SSA included information
(4.1/6.9)   Administration (SSA)    to meet immediate needs is important and          about the need to conserve
            should strengthen its   will increase efforts to educate                  funds in the most recent
            efforts to encourage    representative payees about appropriate           release of the 2008 Guide for
            representative          bank accounts and investments. To ensure          Organizational Payees, which
            payees to save          that representative payees understand this        was mailed to 24,000 payees
            money for               requirement, SSA will cover this issue in         in September 2008. In
            beneficiaries and       more detail in new training initiatives for       addition, SSA will include this
            enforce the             both SSA employees and representative             kind of information in training
            requirement that the    payees.                                           initiatives for payees - see
            saved money is put                                                        Recommendation 6.10.
            in a specified
            savings account.
  4.1       SSA should give         SSA agreed to review data on known                The Office of the Inspector
            special scrutiny to     misusers to determine whether there is any        General (OIG) and SSA are
            representative          correlation between misuse and the receipt        conducting studies on
            payees who receive      of lump sum payments. If SSA finds there          misuse. The OIG will be
            lump-sum payments.      is a greater risk of misuse of lump-sum           releasing the results of its
                                    payments, it will revise its business process     studies in June 2009. SSA's
                                    and procedures to provide increased               study is still underway.
                                    oversight in this area. Also, SSA indicated
                                    it would include this in employee training.
  4.2       SSA should develop      SSA agreed to revise its misuse procedures        SSA reported it published
            new procedures and      to provide additional guidance for                revised procedures on
            policies that prevent   employees who must evaluate questionable          misuse in May 2009.
            the routine             expenditures. To better ensure that field
            reappointment of a      office staff carries out the policy restricting
            representative payee    reappointment of misusers, SSA will require
            who has been            a second-tier review by a manager who will
            documented as a         have to approve any reappointment of a
            misuser or a            known misuser. SSA also plans to
            continued violator of   implement systems changes to enforce this
            SSA policies and        policy, if resources permit. However,
            rules.                  system’s changes are contingent upon the
                                    availability of systems resources to add this
                                    functionality.




  The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                     D-1
Number                NAS                         SSA Response                             Status of Action
             Recommendation
            SSA, including its      SSA stated it would study criteria               See response to 4.1.
   5.1      Inspector General,      associated with misuse, including the
(5.2/6.3)   should use              average length of time a payee serves
            probability sampling    before misuse occurs, to ascertain if there
            with targeted sample    are any other criteria associated with
            selection, using        misuse or poor performance.
            criteria associated
            with misuse of funds,
            to audit
            representative
            payees who are
            more likely to be
            misusers.
  5.3       SSA should              SSA uses specially trained employees to          No additional information
            establish a team of     conduct triennial site reviews with volume       provided.
            experts, such as the    representative payees and has found this
            audit teams used in     approach effective in identifying problem
            the committee’s         situations. SSA conducts random reviews
            study, to audit those   of low-volume organizational representative
            payees who are          payees. SSA also contracts with
            suspected of misuse     accounting firms to assist with some of the
            or who have been        more difficult reviews. This study only
            included in a           included individual and low-volume
            targeted sample of      organizational representative payees. SSA
            potential misusers.     does not routinely conduct site visits with
                                    representative payees in this category due
                                    to staffing limitations.

                                    The expert teams used by the National
                                    Research Council of the National
                                    Academies and proposed for SSA were
                                    specially trained social scientists and
                                    auditors. Before SSA pursues a team of
                                    experts approach, its needs to complete the
                                    studies described in SSA’s response to 5.1
                                    and 5.2 to determine whether it can reliably
                                    target individuals with a high potential for
                                    misuse. Once SSA establishes accurate
                                    misuse indicators, it will determine the
                                    volume of representative payees with the
                                    identified characteristics. If SSA decides to
                                    pursue the team of experts approach to
                                    audit these payees, a conservative estimate
                                    of the cost is $600 per case. SSA believes
                                    additional reviews focused on
                                    representative payees in the groups studied
                                    (those not subject to triennial site reviews),
                                    using professional contractor teams, would
                                    undoubtedly strengthen SSA’s oversight of
                                    representative payees, but the Agency
                                    would have to carefully consider this option
                                    in light of the cost.




  The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                   D-2
Number            NAS                           SSA Response                             Status of Action
          Recommendation
 5.4     SSA should redesign     SSA will examine the new questions for            SSA’s redesign of the annual
         the annual              payees presented in the report to determine       accounting form will be based
         accounting form to      how payee responses to the questions              on the results from the OIG
         obtain meaningful       would improve SSA’s ability to evaluate the       and SSA studies.
         accounting data and     payee’s expenditure and conservation of
         payee                   funds.
         characteristics that
         would facilitate
         evaluation of risk
         factors and payee
         performance.
 5.5     SSA should conduct      SSA will pursue a Memorandum of                   SSA contacted Treasury and
         a test of bank-         Understanding with the Department of the          obtained a sample of a typical
         account-linked debit    Treasury (Treasury) to supply non-                debit card statement to
         cards for               identifiable financial data from the debit        determine whether the use of
         representative          cards used by representative payees on            such cards and their monthly
         payees.                 behalf of their beneficiaries. SSA will           statements could improve
                                 analyze the data to determine what                representative payee
                                 information is available and whether there is     monitoring. After reviewing
                                 any benefit to collecting this data for review.   the statement, SSA
                                                                                   determined it lacked the
                                                                                   details necessary to accept it
                                                                                   in lieu of the standard annual
                                                                                   payee report that presently
                                                                                   exists.
 5.6     SSA should initiate a   SSA is considering potential research areas       Based on the results of the
         research,               that would help obtain data that can be           study, SSA staff met in
         development, and        used to improve the administration of the         September 2008 to discuss
         support function for    Representative Payee Program. In                  possible research ideas.
         the Representative      addition, SSA will continue to conduct
         Payee Program to        special studies, as needed, to focus on
         promote quality and     problems identified.
         cost-effectiveness in
         its operations.
  6.1    To help mitigate        SSA thinks that recruitment of                    SSA has contacted several
 (6.2)   shortages of payees,    representative payees committed to serving        national organizations and
         SSA should create a     for the long term is a more efficient use of      agencies and plans to meet
         program to identify,    its resources. To recruit new representative      with them during the second
         train, certify and      payees, SSA will work at the national level       half of Fiscal Year 2009. The
         maintain a pool of      with groups, such as the National Council         organizations contacted are:
         voluntary, temporary    on Aging and American Association of              AARP, the Substance Abuse
         payees that are         Retired Persons (AARP), to reinforce              and Mental Health Services
         available on an as-     existing, and establish new, partnerships.        Administration and the
         needed basis. If        At the regional level, SSA will develop and       Department of Veterans
         such a program is       maintain representative payee databases.          Affairs.
         authorized, SSA
         should work with and
         obtain help from the
         courts and volunteer
         organizations in
         designing it.




  The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                 D-3
Number             NAS                          SSA Response                            Status of Action
           Recommendation
 6.3     SSA should screen        The OIG will perform an audit that targets a    See response to 4.1
         potential payees         sample of representative payees selected
         (including               using the 15 criteria associated with misuse
         organizational           identified. The audit results will allow SSA
         payees) for              to independently evaluate the 15 indicators
         suitability on the       of misuse to determine their value in
         basis of specified       targeting representative payees for
         factors associated       additional monitoring. SSA will also study
         with misuse,             criteria associated with misuse, including
         particularly credit      the average length of time a payee serves
         history and criminal     before misuse occurs, to ascertain if there
         background.              are any other criteria associated with
                                  misuse or poor performance. SSA will use
                                  the results to develop a process to identify
                                  and monitor representative payees meeting
                                  those criteria. Once the studies are
                                  completed, SSA will consider changing its
                                  random review of certain individual
                                  representative payees (that is, payees
                                  serving fewer than 15 beneficiaries who are
                                  not subject to triennial site reviews) to a
                                  review targeting those representative
                                  payees with the identified criteria.
 6.4     The payees of at-        The OIG will perform an audit of individuals    The results of the OIG audit
         risk beneficiaries       who are representative payees and run           are expected in June 2009.
         should be monitored      room-and-board facilities to address the
         more frequently and      finding that some of these payees have
         intensively than         questionable billing practices. If this audit
         current protocols        shows that the beneficiaries served are at
 6.5     provide.                 risk for misuse, SSA will determine if it can
                                  take additional steps to strengthen its
         SSA should develop       policies to provide more protections.
         policies that define
         and treat as an
         organizational payee
         an individual who
         serves multiple,
         unrelated
 6.6     beneficiaries and
         who is also an
         owner,
         administrator, or
         provider of a room-
         and-board facility.

         SSA should
         reevaluate its
         policies that permit
         creditors and
         administrators of
         facilities to serve as
         payees.




  The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                D-4
Number              NAS                         SSA Response                            Status of Action
           Recommendation
         SSA should change       SSA is revising the provisions in POMS that       New POMS were published
         the Program             explain and define the special relationships      July 2008.
         Operating Manual        between beneficiaries and their
 6.7     System (POMS) to        conservators and those holding powers of
         state that when a       attorney to ensure that its policy is clear and
         beneficiary has an      to ensure that SSA employees who must
         individual with power   assess these types of payee applicants
         of attorney, a legal    consider this relationship when making a
         guardian, or            payee determination.
         conservator, there is
         a preference (with
         flexibility) for
         selecting that
         individual as the
         beneficiary's
         representative
         payee.




  The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)              D-5
Number        NAS Recommendation                         SSA Response                      Status of Action
  6.8    SSA, in consultation with the       Each State has its own laws                No additional
         States, should eliminate            governing guardianship duties and          information provided.
         inconsistencies between State       fees. Guardians may perform very
         and Federal practices regarding     different duties than representative
         the calculation of payee fees and   payees. It would be nearly
         financial oversight.                impossible to find one standard that
                                             would align SSA’s national program
                                             with the law of 50 different States.
                                             Current SSA policy allows part of the
                                             beneficiary’s funds to be used for
                                             customary guardianship or
                                             conservatorship costs, proceedings,
                                             and court-ordered fees, in most
                                             cases. In cases where it appears
                                             the payee is deducting excessive
                                             fees from a benefit payment, SSA
                                             reviews the case considering the
                                             relevant State law guidelines and the
                                             court order and works with the payee
                                             to try and resolve the issue. SSA will
                                             review its policies and procedures
                                             and update them as necessary to
                                             ensure that it is doing all it can to
                                             provide adequate protection for the
                                             beneficiaries.
 6.9     SSA should provide                  While SSA does not agree with all          See the response to
         comprehensive and formal            the report’s recommended solutions         6.10 and the
         training for representative         for training, it does agree to do more     information contained
         payees.                             to increase representative payee use       on page D-12 under
                                             of SSA’s Internet site and to also         “Provide
                                             update representative payee notices        Comprehensive Staff
                                             to include a direct link to the website.   Training.” In addition,
                                             In addition, SSA will conduct focus        in January 2009, SSA
                                             group testing with current                 provided language
                                             representative payees to ascertain         about its website to
                                             the areas that need improvement.           the Office of Systems
                                             Once the focus group testing is            for the notices. The
                                             complete, SSA will consider                Office of Systems will
                                             available resources and decide how         be including that
                                             to proceed. SSA will review existing       language in upcoming
                                             training materials to determine where      releases, the first of
                                             to make improvements, including            which is scheduled
                                             development of a means to increase         for September 2009.
                                             representative payee awareness of
                                             the training material.




 The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                  D-6
Number        NAS Recommendation                        SSA Response                     Status of Action
 6.10    SSA should provide payees           SSA agreed that it should find           SSA plans to host a
         access to various types of well-    effective ways to enhance support of     number of focus
         advertised support in their         representative payees and                groups with payees to
         activities. Such support could      undertake a study of payee support       determine what
         include (1) dedicated field staff   needs to facilitate the development      additional support
         who can serve as contact            of additional training and website       they need. SSA
         persons for payees; (2) toll-free   assistance for payees.                   plans to host these
         telephone numbers specifically                                               groups during the
         for use by payees to seek                                                    summer of 2009.
         assistance from SSA; (3) easily                                              SSA also developed
         comprehensible brochures                                                     a pop-up survey on
         containing examples and                                                      its payee website to
         explanations; (4) enhanced,                                                  collect suggestions
         easy-to-use frequently asked                                                 from payees about
         questions and on-line learning                                               their training and
         tools; (5) guidance on how to                                                support needs.
         meet accounting and document
         retention requirements; and
         (6) on-line guidance for payees
         to complete the annual
         accounting form.
 6.11    SSA should reengineer the           As stated in response to                 No additional
         annual accounting form to           recommendation 5.4, SSA is               information provided.
         ensure the usefulness of the        constantly reviewing the
         data and its transferability into   Representative Payee Report form
         the Representative Payee            to find ways to improve it. SSA
         System (RPS) and other SSA          recently implemented an improved
         information systems.                Representative Payee Accounting
                                             System to record, store, and retrieve
 6.12    SSA should store data from the      data from annual accounting forms.
         annual accounting forms in an       This system ensures the accessibility
         electronic data base suitable for   of accounting data for RPS users
         analysis.                           and allows storage of the data in an
                                             electronic data base suitable for
                                             analysis to detect violations.
                                             Transferability of accounting data to
                                             SSA’s administrative systems will be
                                             a high priority in the redesign of
                                             RPS. Redesign of RPS is discussed
                                             in SSA’s response to
                                             Recommendation 6.15.
 6.13    SSA should provide the option       As stated in SSA’s response to           SSA reported it has
         for payees to complete the          Recommendation 6.10, SSA is              implemented on-line
         annual accounting form on-line.     developing an on-line representative     accounting at the end
                                             payee accounting form and expects        of Calendar Year
                                             to implement it by the end of the        2008.
                                             fiscal year. SSA will be able to
                                             interface data in this form with its
                                             new improved Representative Payee
                                             Accounting system and, more
                                             importantly, provide a user-friendly
                                             method for payees to file their annual
                                             accounting.




 The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)               D-7
Number       NAS Recommendation                          SSA Response                   Status of Action
 6.14    SSA should establish mandatory      Recognizing the importance of taking    The Offices of
         protocols for payee replacement     all possible steps to protect           Systems and
         when misuse is suspected.           beneficiaries, SSA will include a       Operations are
         When misuse or suspected            process for field office employees to   working to redesign
         misuse is the reason for a          record and control the development      RPS via a business
         change of payee, staff should       of misuse allegations made against a    modeling tool. SSA is
         provide full documentation.         representative payee in the             creating a "to be"
                                             redesigned RPS.                         business model that
                                                                                     will identify all the
                                                                                     needed
                                                                                     improvements to
                                                                                     RPS.
 6.15    SSA should redesign RPS.            SSA has recently committed              See response to 6.14.
                                             resources for the planning and
                                             analysis needed to redesign the
                                             system.
 6.16    SSA should implement a              SSA agreed with this                    No additional
         process that regularly updates      recommendation. In fact, the ability    information provided.
         information in RPS, both by field   to propagate data among RPS, the
         office staff and through the        accounting database, and the
         annual accounting form. SSA         payment systems is an important
         should also implement a quality     feature necessary in any redesign of
         control program that periodically   RPS. However, automatic
         checks the integrity of the         propagation of inputs from other
         information in RPS.                 systems into RPS would require an
                                             even greater commitment of
                                             programming resources. SSA
                                             discussed the challenges to
                                             redesigning RPS in its response to
                                             Recommendation 6.15. SSA will
                                             evaluate the feasibility of a quality
                                             review process that will allow
                                             improving instructions to staff and
                                             identify training needs.




 The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)              D-8
Number       NAS Recommendation                           SSA Response                   Status of Action
 6.17    SSA should revise the current        SSA agreed that when payees are         No additional
         regulations that require a final     terminated, they should provide a       information provided.
         accounting whenever a payee is       final accounting and return any
         terminated to ensure, so far as is   conserved funds to SSA so that it
         practicable, that all funds are      may reissue them to the new payee
         accounted for.                       or the beneficiary. However, SSA
                                              believes the Social Security Act and
                                              regulations already provide the
                                              latitude for SSA to request an
                                              accounting at any time. This allows
                                              SSA to implement universal final
                                              accounting through new operational
                                              instructions and system changes.
                                              SSA policy is to obtain a final
                                              accounting from payees for Title II
                                              benefits, if the payee has not served
                                              long enough to file an accounting
                                              form. The process of identifying
                                              when a final accounting is
                                              necessary, mailing the accounting
                                              form, and evaluating the payee’s
                                              responses is a labor-intensive,
                                              manual process. Over the past
                                              several years, SSA has wanted to
                                              automate this process, but did not
                                              have the systems resources to do
                                              so. Additional resources are
                                              necessary to fund this project.




 The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)               D-9
Number       NAS Recommendation                        SSA Response                     Status of Action
 6.18    SSA should track State laws that   SSA disagreed with this                  No additional
         require conservators or legal      recommendation. As explained in          information provided.
         guardians of beneficiaries who     SSA’s response to Recommendation
         need representative payees to      6.7, SSA identifies guardians as
         undergo court monitoring and       preferred payees but does not give
         mandated training. In such         the same preference to conservators
         States, SSA should give            because they do not have the same
         preference to designating the      legal standing. In either case, while
         guardians or conservators as the   SSA considers the fact that there is a
         payees and seek to integrate or    guardian or conservator in making a
         coordinate its payee training      payee selection, the Agency does
         materials with the State-          not automatically assume that either
         mandated training.                 a guardian or conservator is the best
                                            payee.

                                            In 1998, SSA funded a grant to
                                            research the issue of coordination
                                            between State court guardianship
                                            actions and SSA’s Representative
                                            Payee Program. The biggest
                                            barriers facing SSA were the Privacy
                                            Act and the fact that SSA does not
                                            have a statement of routine use
                                            allowing it to share representative
                                            payee information with State courts.
                                            While SSA could develop a new
                                            statement of routine use, SSA would
                                            then face the enormous task of
                                            negotiating hundreds of
                                            memorandums of understanding with
                                            State and local courts before
                                            information sharing would be
                                            possible. To automate the process,
                                            SSA would have to develop a
                                            complex system to receive and
                                            match reports from State and local
                                            courts with its records. SSA may
                                            only disclose information to State
                                            courts or other Federal agencies in
                                            accordance with the Privacy Act and
                                            SSA’s regulations. In addition, this
                                            recommendation goes far beyond
                                            the scope of SSA’s core mission with
                                            regard to the Representative Payee
                                            Program. SSA addressed the
                                            recommendation to track State laws
                                            in response to Recommendation
                                            6.19.




 The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)             D-10
Number        NAS Recommendation                           SSA Response                     Status of Action
 6.19    SSA should begin an outreach         SSA disagreed with this                    No additional
         program with State agencies to       recommendation. SSA has a State            information provided.
         compile the laws and practices       guardianship digest in POMS that
         and study the differences in         includes a State-by-State breakdown
         various States’ regulation of        of guardianship laws. Creating
         assisted living, foster care, and    another, similar list of State laws and
         other group homes.                   regulations related to assisted living,
                                              foster care, and other group homes,
                                              would be resource intensive for SSA
                                              and far beyond its statutory
                                              responsibility to ensure that benefits
                                              are paid to payees for the use and
                                              maintenance of incapable
                                              beneficiaries. It would be extremely
                                              difficult for SSA to develop a
                                              systematic way to share information
                                              considering the number of State and
                                              local agencies that exist, the differing
                                              laws of each State, and the effort
                                              involved to accommodate all
                                              agencies’ needs. Past attempts to
                                              develop similar comprehensive
                                              information have shown that along
                                              with significant variation in State
                                              laws and regulations, it is difficult to
                                              ensure that the collected information
                                              is maintained and updated.
         Provide Comprehensive Staff          SSA is developing a multi-year             SSA is developing
         Training: Several                    interactive video training initiative      four new Interactive
         recommendations indicate that        that will be available to SSA field        Video Teletraining
         better training of SSA staff might   employees on-line. This training will      classes for release
         yield better decisions in            focus on issues where training is          this summer. Two
         representative payee actions.        needed, such as (1) how to explain         are directed at field
                                              to representative payees the               office managers and
                                              requirement to save money not              two are for claims
                                              needed to meet current needs and           technicians. In
                                              (2) the procedure that must be             addition, SSA is
                                              followed when making exceptions to         updating the entire
                                              SSA’s rules prohibiting reappointing       entry level
                                              a misuser.                                 representative payee
                                                                                         training packages
                                                                                         used in field offices
                                                                                         and plans to make all
                                                                                         the revisions during
                                                                                         this calendar year. In
                                                                                         all this training, SSA
                                                                                         will be emphasizing
                                                                                         the points made in
                                                                                         this report.




 The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)                  D-11
                                                                                     Appendix E

Representative Payee Reports
           Number of Representative Payee Reports - Fiscal Year (FY) 2006
                                                  Number of Forms Handled in
        Type of Report       Reports Mailed           SSA Processing Center
                 1
    SSA Form 623                 2,203,167                    1,721,873
    SSA Form 6230 2              2,724,449                    2,232,967
                   3
    SSA Form 6234                  661,877                       608,257
    Totals                       5,589,493                    4,563,097


                  Number of Representative Payee Reports - FY 2007
                                                   Number of Forms Handled in
       Type of Report         Reports Mailed         SSA Processing Center
    SSA Form 623                  2,205,465                   1,884,309
    SSA Form 6230                 2,862,604                   2,418,574
    SSA Form 6234                   662,813                     600,783
           Totals                 5,730,882                   4,903,666


              Number of Representative Payee Reports - FY 2008
                                               Number of Forms Handled in
   Type of Report         Reports Mailed         SSA Processing Center
SSA Form 623                  2,266,020                  1,955,556
SSA Form 6230                 2,881,374                  2,436,035
SSA Form 6234                   674,933                    615,371
       Totals                 5,822,327                  5,006,962




1
    SSA Form 623 is the accounting form used for individual payees for adult beneficiaries.
2
 SSA Form 6230 is the accounting form used for parent, step parent, and grandparent payees who have
custody of a minor or several minors. For Title II benefits, payees may account for up to four children on
one SSA -6230; for Title XVI, payees receive a separate form for each child.
3
    SSA Form 6234 is the accounting form used for organizational payees.


The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)
                                                                           Appendix F

Representative Payee Reviews
  Number of Reviews by Type of Representative Payee – Fiscal Year (FY) 2006
                                  Site     Random Targeted Educational
                                Reviews Reviews Reviews             Visits
Organizational Payees             683        249         3             0
Fee-for-Service Payees            248         98         2            44
Individual Payees                 129         36         0             0
Other Payees                       0           0         3             0
Totals                           1,060       383         8            44


          Number of Reviews by Type of Representative Payee - FY 2007
                                   Site     Random Targeted Educational
                                 Reviews Reviews Reviews             Visits
Organizational Payees              725        165         9            0
Fee-for-Service Payees             357        88          0           37
Individual Payees                  252        207         0            0
Other Payees                         0         0          8            0
Totals                            1,334       460         17          37


          Number of Reviews by Type of Representative Payee - FY 2008
                                   Site     Random Targeted Educational
                                 Reviews Reviews Reviews             Visits
Organizational Payees             1,063       134         6           13
Fee-for-Service Payees             287         0          4           24
Individual Payees                  138        208         4            5
Other Payees                         0         0          7            1
Totals                            1,488       342         21          43




The Social Security Administration’s Oversight of Representative Payees (A-13-09-29141)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
